0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Respondents' Brief in Opposition to Petitions
for Writs of Certiorari in 19-1257, Mark Brnovich,
Attorney General of Arizona, et al. v. Democratic
19-1258, Arizona
National Committee, et al.,
Republican Party, et al. v. Democratic National
Committee, et al., was sent via Next Day Service to the
U.S. Supreme Court, and e-mail service to the
following parties listed below, this 1st day of July,
2020:
Oramel H. (O.H.) Skinner
Solicitor General
Office of the Arizona Attorney General
2005 N. Central Ave.
Phoenix, AZ 85004
(602) 542-5025
o.h.skinner@azag.gov

Counsel for Petitioners
Michael A. Carvin
Jones Day
51 Louisiana Ave., N.W.
Washington, DC 20001
(202) 879-7643
macarvin@jonesday.com

Counsel for Petitioners
Arizona Republican Party, et al.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

I Franklin Square
1300 I Street, NW, Suite 400E
I Washington, DC 20005

Jessica Ring Amunson
Sam Hirsch
Jenner & Block LLP
1099 New York Avenue, NW
Suite 900
Washington, DC 20001-4412
(202) 639-6000
JAmunson@jenner.com
SHirsch@jenner.com
Counsel for Respondent
Katie Hobbs, in her official capacity as
Secretary of State of Arizona
Marc E. Elias
Bruce V. Spiva
Elisabeth C. Frost
Amanda R. Callais
Alexander G. Tischenko
Lalitha D. Madduri
Perkins Coie LLP
700 Thirteenth Street N. W.
Suite 800
Washington, DC 20005-3960
(202) 654-6200
MElias@perkinscoie.com
Daniel C. Barr
Sarah R. Gonski
Perkins Coie LLP
2901 N. Central Ave
Suite 2000
Phoenix, AZ 85012
(602) 351-8000
Counsel for Respondents

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 1, 2020.

0)

DonnaJ. Wol~
Becker Gallagher Legal Pul5lishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023 .

•

